TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Continued Improvements Are Needed for the
                   Development and Operations of the New
                      Enterprise Services Organization



                                           April 27, 2007

                              Reference Number: 2007-20-073




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 April 27, 2007


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Continued Improvements Are Needed for the
                                 Development and Operations of the New Enterprise Services
                                 Organization (Audit # 200620010)

 This report presents the results of our review of the Enterprise Services organization (the
 Organization). The overall objective of this review was to determine whether internal controls
 were in place to ensure the Organization was achieving its mission efficiently and effectively.
 This review was part of the Treasury Inspector General for Tax Administration’s Fiscal Year
 2006 Information Systems Programs audit plan for reviews on the adequacy and security of
 Internal Revenue Service (IRS) technology.

 Impact on the Taxpayer
 The Organization has a Fiscal Year 2007 estimated budget of $85.9 million and had
 784 employees as of May 2006. The Organization needs to further define its missions and goals,
 validate staffing assignments, and create performance measures. Until this work is complete,
 neither we nor the IRS will be able to objectively determine whether the Organization is
 operating efficiently or effectively and whether taxpayer funds are being spent wisely.

 Synopsis
 The Modernization and Information Technology Services organization supports tax
 administration within the IRS by delivering information technology services and solutions.
 In 2004, the IRS began investigating industry best practices1 for organizing certain information
 technology services common to all projects under development. As a result, the Modernization

 1
     Appendix IV provides a glossary of terms.
                Continued Improvements Are Needed for the Development and
                   Operations of the New Enterprise Services Organization



and Information Technology Services organization began consolidating several existing
functions and offices to form the new Organization under a newly appointed Associate Chief
Information Officer, in an effort to improve services provided to internal customers.
During the consolidation, individual offices within the two Organization functions (Business
Integration and Systems Integration) have continued to perform prior operations, such as
providing infrastructure support and managing demand for information technology services,
while incorporating new roles and responsibilities as part of the Organization. Many of the
offices have gone even farther by developing individual concepts of operations; defining specific
visions, priorities, and plans; and performing detailed work assessment studies. Also, the
Organization completed several Highest Priority Initiatives and individual offices completed
significant activities during Fiscal Year 2006. For example, the Organization assisted with more
than 40 projects in developing high-level cost
estimates to help the IRS create its overall portfolio of
systems development projects.                                   The Organization needs to
                                                           further define its missions and
Developing an organization to incorporate operations              goals, validate staffing
and services at an enterprisewide level is a complex             assignments, and create
effort. The IRS created the Organization structure               performance measures.
based on recommendations from the MITRE
Corporation, IBM, and key IRS executives; developed
preliminary staffing estimates; and used the Highest Priority Initiatives process to ensure
significant activities were accomplished as the Organization was founded. The IRS stated it had
initially documented high-level commitments for Organization senior managers; however, IRS
executives believed directors and managers would need to gain operational experience within the
new Organization before developing individual goals and missions within their respective
functions and offices. In May 2006, the Organization documented the missions and goals of its
subordinate offices. As we were completing our audit, the validation of these missions and goals
was ongoing at many levels of the Organization, and work was underway to define short-term
and long-term (transformational) plans, validate staffing assignments, and measure performance.
Because this work is in process, we were unable to objectively determine the level of efficiency
or effectiveness of the individual offices or the overall Organization.

Recommendations
To ensure the continued orderly evolution of the Organization, we recommended the Associate
Chief Information Officer, Enterprise Services, complete the work necessary to validate and
document missions and goals and to develop and document short-term and long-term
transformational plans. To ensure resource staffing assignments are commensurate with the
work being conducted, we recommended the Associate Chief Information Officer, Enterprise
Services, track individual work assignments when applicable, revise the Single Entry Time

                                                                                                2
                Continued Improvements Are Needed for the Development and
                   Operations of the New Enterprise Services Organization



Reporting system codes, and reevaluate staffing needs based on current and future workloads.
To ensure performance is defined and measured, we recommended the Associate Chief
Information Officer, Enterprise Services, complete the current performance measures pilot,
identify performance measures for offices not included in the current pilot, and identify key
performance measures for the entire Organization based on goals and missions as well as
short-term and long-term plans.

Response
The Chief Information Officer agreed with our recommendations and stated the IRS will
document the mission and goals for the Organization, complete the current performance
measures pilot, and identify performance measures for the Organization. The Chief Information
Officer also stated the IRS will construct a high-level approach to develop short-term and
long-term transformation plans and create an implementation plan to establish new Single Entry
Time Reporting codes and processes to validate staffing needs. In the interim, the Organization
management team will meet regularly to refine priorities and work with the Single Entry Time
Reporting administrator to establish new codes and develop reports for more accurate tracking of
staff and activities. Management’s complete response to the draft report is included as
Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                3
                      Continued Improvements Are Needed for the Development and
                         Operations of the New Enterprise Services Organization




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Organization Offices Have Continued to Perform Prior Operations
          While Managing New Roles and Responsibilities........................................Page 2
          The Organization Needs to Further Define Its Missions and Goals,
          Validate Staffing Assignments, and Create Performance Measures ............Page 2
                    Recommendations 1 and 2: ................................................Page 5

                    Recommendation 3:..........................................................Page 6

                    Recommendation 4:..........................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Glossary of Terms................................................................Page 12
          Appendix V – Enterprise Services Organization Accomplishments ............Page 15
          Appendix VI – Enterprise Services Organization Structure .........................Page 16
          Appendix VII – Management’s Response to the Draft Report.....................Page 18
      Continued Improvements Are Needed for the Development and
         Operations of the New Enterprise Services Organization




                     Abbreviations

IRS            Internal Revenue Service
                      Continued Improvements Are Needed for the Development and
                         Operations of the New Enterprise Services Organization




                                                Background

The Modernization and Information Technology Services organization supports tax
administration within the Internal Revenue Service (IRS) by delivering information technology
services and solutions. In 2004, the IRS began investigating industry best practices1 for
organizing certain information technology services common to all projects under development.
As a result, the Modernization and Information Technology Services organization began
consolidating several existing functions and offices to form the new Enterprise Services
organization (the Organization) under a newly appointed Associate Chief Information Officer, in
an effort to improve services provided to internal customers.
With a Fiscal Year 2007 estimated budget of $85.9 million, the Organization is structured into
two functions: Business Integration and Systems Integration. This major restructuring of
multiple Modernization and Information Technology Services organization functions into the
Organization included 784 IRS employees as of May 2006.
This review was performed at the Modernization and Information Technology Services
organization office in New Carrollton, Maryland, during the period September 2006 through
January 2007. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




1
    Appendix IV provides a glossary of terms.
                                                                                          Page 1
                   Continued Improvements Are Needed for the Development and
                      Operations of the New Enterprise Services Organization




                                     Results of Review

Organization Offices Have Continued to Perform Prior Operations
While Managing New Roles and Responsibilities
The consolidation of existing Modernization and Information Technology Services organization
functions and offices into the new Organization affected the duties and responsibilities of
522 IRS employees within the Business Integration function and 262 employees within the
Systems Integration function. During the consolidation, individual offices within the two
Organization functions have continued to perform prior operations, such as providing
infrastructure support and managing demand for information technology services, while
incorporating new roles and responsibilities as part of the Organization.
Many of the offices have gone even farther by developing individual concepts of operations;
defining specific visions, priorities, and plans; and performing detailed work assessment studies.
Also, the Organization completed several Highest Priority Initiatives and individual offices
completed significant activities during Fiscal Year 2006. For example, the Organization
implemented a system to centrally manage change requests and requests for information
services. Previously, the IRS had used multiple processes to request information systems
support, which had led to resource shortages and cost overruns. In addition, the Organization
assisted over 40 projects in developing high-level cost estimates to help the IRS create its overall
portfolio of systems development projects.2

The Organization Needs to Further Define Its Missions and Goals,
Validate Staffing Assignments, and Create Performance Measures
Developing an organization to incorporate operations and services at an enterprisewide level is a
complex effort. Thus, the IRS has formed the Organization incrementally. In early 2005,
several offices from the previous Business Systems Modernization Office and two other
Modernization and Information Technology Services organizations became the first offices to
migrate to the Organization. In September 2005, the IRS moved most of the remaining Business
Integration and Systems Integration functions from the previous Business Systems
Modernization Office into the Organization. Other offices within the Modernization and
Information Technology Services organization became part of the Organization in the summer
of 2006, and as we were concluding our audit work, the IRS and the Organization were

2
 Appendix V provides a list of some of the major Organization accomplishments completed in Fiscal
Year 2006.
                                                                                                    Page 2
                      Continued Improvements Are Needed for the Development and
                         Operations of the New Enterprise Services Organization



considering additional changes to the Organization structure. Figure 1 provides a timeline for
the formation of the Organization.3
                                     Figure 1: Organization Timeline
     Date                  Milestone
     January 2005          Appointment of a new Associate Chief Information Officer for the
                           Organization.
     March 2005            Initial standup of the Organization with four offices.
     September 2005        Formation of the Business Integration and Systems Integration functions
                           within the Organization.
     May 2006              Approved organizational change for the Organization.
    Source: Internal IRS documentation.

The IRS created the Organization structure based on                       “It’s important to set clear
recommendations from the MITRE Corporation, IBM,                          goals and to set priorities for
and key IRS executives; developed preliminary staffing                    the dollars we spend, and once
estimates; and used the Highest Priority Initiatives                      a goal is set, a goal that
process to ensure significant activities were                             everyone can understand, it’s
accomplished as the Organization was founded. The                         important to make sure we
IRS stated it had initially documented high-level                         measure to determine whether
commitments for Organization senior managers;                             or not we’re achieving the
however, IRS executives believed directors and                            results.”
managers would need to gain operational experience
within the new Organization before developing                                       George W. Bush at the
individual goals and missions within their respective                             President’s Management
functions and offices. In May 2006, the Organization                                 Council Meeting held
documented the missions and goals of its subordinate                                     October 13, 2006
offices.
As we were completing our review, the validation of these missions and goals was ongoing at
many levels of the Organization, and work was underway to define short-term and long-term
(transformational) plans, validate staffing assignments, and measure performance. Because this
work is in process, we were unable to objectively determine the level of efficiency or
effectiveness of the individual offices or the overall Organization.
During the Organization’s first full fiscal year of operations, management focused on ensuring
ongoing work was completed and support was provided to ongoing projects. As the


3
    Appendix VI provides a detailed timeline for the formation of the Organization.
                                                                                                       Page 3
                    Continued Improvements Are Needed for the Development and
                       Operations of the New Enterprise Services Organization



organizational structure begins to stabilize, we believe it is time to further define missions and
goals and make the Organization more mature.

The Organization needs to define and validate its missions and goals
The Government Performance and Results Act of 19934 was established to improve Federal
Government programs and initiate reforms to set program goals, measure performance against
those goals, and publicly report progress. More specifically, the Act calls for strategic plans
containing a comprehensive mission statement with descriptions of how goals and objectives are
to be achieved by Federal Government agencies. Using the principles outlined in the
Government Performance and Results Act of 1993, the IRS developed the Manager’s Guide to
the IRS Strategic Planning, Budgeting and Performance Management Processes (the Guide).5
The Guide states organizational units (such as the Organization) should create business plans and
action plans “that articulate what tactical actions, applied resources, and performance milestones
will be implemented to drive day-to-day operations.” In addition, in a memorandum dated
December 21, 2006, to all Modernization and Information Technology Services organization
employees, the Chief Information Officer committed to developing and incorporating tactical
transition plans so organizations could operate using best practices.
We determined the overall mission, purpose, and goals
of the Organization at the program level need to be
defined and detailed to provide the necessary direction         The overall mission, purpose,
                                                               and goals for the Organization
and oversight to Organization functions and their               need to be defined at a more
offices. The Organization has not created detailed                       detailed level.
short-term and long-term (transformational) plans.
Several offices within the Organization, however, have
developed short-term plans. Until plans are created at the organization level, it is unclear
whether the individual offices’ plans will align with the overall short-term and long-term goals of
the Organization, once defined.
As mentioned previously, the IRS stated it had initially documented high-level commitments for
Organization senior managers; however, the IRS believed the organization needed operational
experience before developing goals and missions. Without clearly defined short-term or
long-term plans tied to missions and goals, neither we nor the IRS can measure objectively
whether the Organization is operating effectively or efficiently.
Management Actions: The IRS has initiated a Highest Priority Initiative to clarify the mission
and operating model for the Organization by March 31, 2007. In addition, individual offices are



4
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
5
  Dated September 29, 2000.
                                                                                                             Page 4
                 Continued Improvements Are Needed for the Development and
                    Operations of the New Enterprise Services Organization



in the process of revalidating existing missions and goals, conducting workload studies, and
developing roles and responsibilities.

Recommendations
To ensure the continued orderly evolution of the Organization, the Associate Chief Information
Officer, Enterprise Services, should:
Recommendation 1: Complete the work necessary to appropriately identify, document, and
validate missions and goals at all levels, functions, and offices of the new Organization.
       Management’s Response: The Chief Information Officer agreed with the
       recommendation and stated the IRS will document the mission and goals for the
       Organization. These missions and goals will be validated and updated as the
       Organization completes its iterative planning cycle.
Recommendation 2: Develop and document short-term and long-term transformational plans
tied to missions, goals, and strategic plans of the Modernization and Information Technology
Services organization and the IRS.
       Management’s Response: The Chief Information Officer agreed with the
       recommendation and stated the IRS will construct a high-level approach for refining the
       Organization’s strategic plans. This approach will address an iterative planning process
       for developing short-term and long-term transition plans for the Organization. In the
       interim, the Organization management team will meet regularly to refine priorities and
       integrate planning approaches with products and services already in-flight. In addition,
       the IRS will select priorities based on management and stakeholder feedback and
       participate in strategic plan initiatives.
       Office of Audit Comment: The IRS indicated the high-level approach for refining the
       Organization’s strategic plans will be completed by February 1, 2008. While we concur
       with the IRS plans to create an iterative approach to ensure short-term and long-term
       planning is not a one-time event, the IRS did not state when short-term and long-term
       plans would be developed and documented. We would hope plans are developed as soon
       as possible to provide a method for objectively measuring whether the Organization is
       operating effectively and efficiently.

The Organization needs to validate its staffing assignments
The Guide states organizational units should develop plans that outline how resources will be
allocated to accomplish strategies and programs. The resource plans should reflect the
established strategic direction of the organizational unit. Throughout the fiscal year, analyses
should be performed to determine whether all the allocated resources were used as planned.


                                                                                             Page 5
                Continued Improvements Are Needed for the Development and
                   Operations of the New Enterprise Services Organization



Afterwards, resource plans should be adjusted based on
unexpected events, to improve upon future plans.                As goals and missions are
                                                             refined, staffing levels will need
The IRS created preliminary staffing estimates for each             to be revalidated.
Organization office. Since the preliminary estimates
were created, the offices have defined and are currently
validating their goals and missions. As the goals and missions are refined, staffing levels will
need to be revalidated to determine whether resources are adequate. Once the staffing levels are
revalidated, it will be important to track the progress of work activities and products. However,
we determined offices within the Organization currently do not always identify, assign, and track
work activities and products at a detailed level. Also, the Single Entry Time Reporting system
used by employees to track time spent on particular types of work does not include detailed
codes reflecting current activities.
Without a current staffing analysis and processes for identifying, assigning, and tracking work,
neither we nor the IRS can objectively determine whether the staffing levels in the Organization
are commensurate with the work being conducted. We believe determining adequate staffing for
the Organization has been difficult to accomplish because its missions, goals, and plans have yet
to be defined at a detailed level.
Management Actions: Several offices within the Organization are reviewing their work
requirements and performing individual staffing analyses. In addition, the Organization is in the
process of reviewing the Single Entry Time Reporting system codes.

Recommendation
Recommendation 3: To ensure resource staffing assignments are commensurate with the
work being conducted, the Associate Chief Information Officer, Enterprise Services, should:
   •   Track individual assignments and work products, when applicable.
   •   Revise Single Entry Time Reporting system codes to provide a more accurate and
       detailed accounting of staffing and activities.
   •   Reevaluate staffing needs based upon current and future workloads to help prioritize and
       allocate resources. Once workload and resource plans are developed, this information
       should be used in developing business and action plans for each Organization office.
       Management’s Response: The Chief Information Officer agreed with our
       recommendation and stated the Organization would conduct an initiative aimed at
       reevaluating and improving existing Single Entry Time Reporting codes and define
       modifications to the code structure. In addition, the IRS will create an implementation
       plan to establish new Single Entry Time Reporting codes and processes to iteratively
       validate staffing needs based on defined missions and goals. In the interim, the

                                                                                             Page 6
                 Continued Improvements Are Needed for the Development and
                    Operations of the New Enterprise Services Organization



       Organization management team will work with the Single Entry Time Reporting
       administrator to determine existing capabilities, determine internal requirements to better
       monitor assignments and work products, establish new codes, and develop reports for
       more accurate tracking of staff and activities.
       Office of Audit Comment: The IRS indicated the implementation plan for
       establishing new codes and informing the organization will be completed by
       April 1, 2008. While we concur with IRS plans to create an implementation plan, the
       IRS did not state when the new codes will begin to be used or when the staffing analysis
       will be completed. We would hope that implementing the new codes; conducting staffing
       analyses; and identifying, assigning, and tracking work would be completed as soon as
       possible to allow the IRS to objectively determine whether the staffing levels in the
       Organization are commensurate with the work being conducted.

The Organization needs to define performance measures
A purpose of the Government Performance and Results Act of 1993 is to improve on holding
Federal Government agencies accountable for achieving program results. One way to achieve
this accountability is through the development of performance plans with established
performance goals that are objective, quantifiable, and measurable. The Guide states IRS
organizations must define and validate metrics to
measure and report their performance against plans and       Performance measures are not
expectations.                                                 being captured for the overall
                                                                       Organization.
We determined performance measures are not being
captured or reported for the overall Organization, and
there are few measures being reported and tracked by its functions or offices. Without measures,
the IRS can not objectively determine how well the Organization, or its individual functions and
offices, are performing. Also, the IRS can not measure the Organization’s ability to meet
Modernization and Information Technology Services organization and IRS goals. We believe
performance measurement has been difficult to accomplish because Organization missions,
goals, and plans have yet to be defined at a detailed level to provide the foundation for the
development and use of performance measures. In addition, the Organization was not required
to provide measures during its initial operations.
Management Actions: Individual offices within the Organization are developing internal
performance measures and metrics, and one office is developing and initiating customer
satisfaction surveys. Currently, several offices within the Business Integration function are
participating in a performance measures pilot.




                                                                                            Page 7
                Continued Improvements Are Needed for the Development and
                   Operations of the New Enterprise Services Organization



Recommendation
Recommendation 4: To ensure performance is defined and measured, the Associate Chief
Information Officer, Enterprise Services, should:
   •   Complete the current performance measures pilot.
   •   Identify performance measures for offices not included in the performance measures
       pilot.
   •   Identify key performance measures for the entire Organization, based on goals and
       missions as well as short-term and long-term plans.
       Management’s Response: The Chief Information Officer agreed with our
       recommendation and stated the IRS would complete the current performance measures
       pilot and identify performance measures for offices not included in the pilot as well as the
       Organization.




                                                                                            Page 8
                      Continued Improvements Are Needed for the Development and
                         Operations of the New Enterprise Services Organization



                                                                                     Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether internal controls were in place to
ensure the Organization was achieving its mission efficiently and effectively. To accomplish this
objective, we:
I.         Determined whether staffing levels were appropriately assigned and tracked to deliver
           results within the Business Integration and Systems Integration functions of the
           Organization.
           A. Selected and reviewed a judgmental sample of 5 (approximately 33 percent) of
              15 subordinate offices from the Business Integration and Systems Integration
              functions. We used judgmental sampling because we did not plan to project our
              sample results.
           B. Identified and verified documented goals, missions, and priorities of the sampled
              offices.
           C. Determined whether Single Entry Time Reporting1 system reports matched the work
              performed in Fiscal Year 2006.
II.        Determined whether the design and structure of the Organization supported the goals and
           mission of the IRS and the Modernization and Information Technology Services
           organization.
           A. Determined short-term and long-term goals for the Modernization and Information
              Technology Services organization and the Organization.
           B. Determined whether the Organization’s goals and design met the IRS’ needs.
III.       Determined the processes established for measuring the Organization’s overall
           performance.




1
    Appendix IV provides a glossary of terms.
                                                                                             Page 9
                Continued Improvements Are Needed for the Development and
                   Operations of the New Enterprise Services Organization



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Troy Paterson, Audit Manager
Phung-Son Nguyen, Lead Auditor
Perrin Gleaton, Auditor
Linda Screws, Auditor




                                                                                     Page 10
               Continued Improvements Are Needed for the Development and
                  Operations of the New Enterprise Services Organization



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Director, Stakeholder Management OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Associate Chief Information Officer, Enterprise Services OS:CIO:ES
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                  Page 11
                Continued Improvements Are Needed for the Development and
                   Operations of the New Enterprise Services Organization



                                                                         Appendix IV

                               Glossary of Terms

Term                                  Definition
Best Practice                         A best practice is a technique or
                                      methodology that, through experience and
                                      research, has proven to reliably lead to a
                                      desired result.
Business Rule                         A business rule is a statement that defines
                                      or constrains some aspect of the business.
Change Request                        A change request is the medium for
                                      requesting approval to change a baselined
                                      product or other controlled item.
Concept of Operations                 The Concept of Operations is a
                                      framework that includes a defined vision,
                                      strategic goals, operational themes, and
                                      program capabilities. It identifies key
                                      organizational concepts required to
                                      achieve the organization’s vision.
Configuration Management              Configuration management involves
                                      establishing proper control over approved
                                      project documentation, hardware, and
                                      software and assuring changes are
                                      authorized, controlled, and tracked.
Highest Priority Initiatives          Highest Priority Initiatives are a program
                                      of continual process improvement with
                                      executive-level oversight. IRS executives
                                      identify the highest priority programs
                                      every 6 months and appoint an IRS
                                      executive and senior manager to oversee
                                      the execution of each Highest Priority
                                      Initiative.




                                                                                    Page 12
                 Continued Improvements Are Needed for the Development and
                    Operations of the New Enterprise Services Organization




Term                                   Definition
Human Resource Capacity Management     This Human Resource Capacity
Directive                              Management Directive provides direction
                                       for implementing and complying with the
                                       Human Resource Capacity Management
                                       Model requirements. The Human
                                       Resource Capacity Management Model
                                       provides IRS personnel with the means to
                                       better estimate the human resources
                                       needed to support a project.
Information Technology Modernization   Information Technology Modernization
Vision and Strategy                    Vision and Strategy establishes a 5-year
                                       plan that drives investment decisions;
                                       addresses the priorities around
                                       modernizing front-line tax administration
                                       and supporting technical capabilities; and
                                       leverages existing systems (where
                                       possible) and new development (where
                                       necessary) to optimize capacity, manage
                                       program costs, and deliver business value
                                       on a more incremental and frequent basis.
Infrastructure                         Infrastructure is the fundamental structure
                                       of a system or organization. The basic,
                                       fundamental architecture of any system
                                       (electronic, mechanical, social, political,
                                       etc.) determines how it functions and how
                                       flexible it is to meet future requirements.
Metric                                 A metric is a standard of measurement.
MITRE Corporation                      The MITRE Corporation was hired by the
                                       IRS as a Federally Funded Research and
                                       Development Center to assist with the
                                       IRS’ systems modernization effort.




                                                                                     Page 13
               Continued Improvements Are Needed for the Development and
                  Operations of the New Enterprise Services Organization




Term                                Definition
Request for Information Services    A Request for Information Services is a
                                    formal memorandum requesting
                                    organization support for changes to
                                    current or planned programming,
                                    corporate hardware, commercial
                                    off-the-shelf software applications, system
                                    testing, and other activities used in
                                    processing tax information.
Single Entry Time Reporting         The Single Entry Time Reporting system
                                    is designed to accumulate time and
                                    attendance information for employees.
Unified Work Request Initiative     The Unified Work Request Initiative is an
                                    effort focused on consolidating the
                                    existing methods of requesting work from
                                    the Modernization and Information
                                    Technology Services organization into a
                                    single system using a common set of
                                    processes.




                                                                                  Page 14
                 Continued Improvements Are Needed for the Development and
                    Operations of the New Enterprise Services Organization



                                                                              Appendix V

 Enterprise Services Organization Accomplishments

The consolidation of existing Modernization and Information Technology Services organization
functions and offices into the new Organization affected the duties and responsibilities of
522 IRS employees within the Business Integration function and 262 employees within the
Systems Integration function. During the consolidation, individual offices within the two
Organization functions have continued to perform prior operations while managing new roles
and responsibilities. Some of the major accomplishments provided by the Organization in Fiscal
Year 2006 are listed in Table 1.
      Table 1: Examples of Organization Fiscal Year 2006 Accomplishments

   Completed solutions, concepts, and support for over 40 projects.

   Completed Information Technology Modernization Vision and Strategy planning and
   recommendations.

   Initiated a pilot program for performance measures.

   Completed a Human Resource Capacity Directive and management processes for use by
   projects.

   Completed and deployed the Unified Work Request Initiative processes.

   Completed the rollout of an instant messaging system.

   Completed seven engineering alternative analyses.

   Developed a Business Rules and Requirements Management Concept of Operations.

   Developed a Draft Unified Work Request Concept of Operations.

   Conducted a customer satisfaction survey with the IRS Office of Chief Counsel.

   Mapped alternative business analysis systems to Department of the Treasurywide systems
   and common business processes.
  Source: IRS Managers within the Organization.


                                                                                      Page 15
                Continued Improvements Are Needed for the Development and
                   Operations of the New Enterprise Services Organization



                                                                                 Appendix VI

         Enterprise Services Organization Structure

Developing an organization to incorporate operations and services at an enterprisewide level is a
complex effort. Thus, the IRS has formed the Organization incrementally. Figure 1 provides a
detailed timeline concerning the formation of the Organization.
                         Figure 1: Detailed Organization Timeline




                Source: Internal IRS documentation.




                                                                                         Page 16
                   Continued Improvements Are Needed for the Development and
                      Operations of the New Enterprise Services Organization



Figure 2 shows the Organization is comprised of two functions (Business Integration and
Systems Integration).
                          Figure 2: High Level Organization Structure

                                             Enterprise Services
                                       Associate Chief Information Officer




              Business Integration                                        Systems Integration
 Deputy Associate Chief Information Officer and Staff       Deputy Associate Chief Information Officer and Staff

Source: IRS organizational documents as of May 2006.

Figure 3 provides the organizational structures of the Business Integration and Systems
Integration functions within the Organization.
   Figure 3: Business Integration and Systems Integration Function Structures




Source: IRS organizational documents as of May 2006.




                                                                                                       Page 17
    Continued Improvements Are Needed for the Development and
       Operations of the New Enterprise Services Organization



                                                 Appendix VII

Management’s Response to the Draft Report




                                                        Page 18
Continued Improvements Are Needed for the Development and
   Operations of the New Enterprise Services Organization




                                                    Page 19
Continued Improvements Are Needed for the Development and
   Operations of the New Enterprise Services Organization




                                                    Page 20
Continued Improvements Are Needed for the Development and
   Operations of the New Enterprise Services Organization




                                                    Page 21
